HHS/OIG - Audit, Review of Medicare Payments Made on Behalf of Deported Beneficiaries, (A-04-01-05004)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments Made on Behalf of Deported Beneficiaries," (A-04-01-05004)
March 29, 2002
Complete
Text of Report is available in PDF format (743 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report, based on a review requested by the Senate Finance Committee, points out that the Medicare program is
vulnerable to improper payments for services rendered to deported beneficiaries. We identified 1,072 Medicare beneficiaries
who have been deported. Of these, we determined that 49 had improper payments totaling $836,711 made on their behalf during
1998 and 1999. These improper payments occurred because the Centers for Medicare & Medicaid Services (CMS) did not
utilize deportation information in its main database of Medicare enrollment data for processing payments to fee-for-service
or managed care providers. In addition to financial adjustments, we are recommending that CMS utilize the deportation information
already in its possession to preclude such improper payments. Officials of CMS generally concurred with our recommendations.